IN THE.SSUPREME COURT OF THE UNITED STATES

ROBERTO YOQUIGUA LOPEZ,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Certificate of Service

I, Kristi A. Hughes, appointed to represent the petitioner under the Criminal Justice
Act, certify that on October 30, 2020, one copy of the Petition for a Writ of Certiorari, the
Appendix. and a Motion to Proceed In Forma Pauperis in the above-captioned case were
served by email, addressed as follows:

Honorable Noel Francisco, Solicitor General of the United States
SupremeCtBriefs@USDOJ.gov

Respectfully submitted,

October 30, 2020

P.O. Box 141

 

Cardiff, CA 92007
Telephone: (858) 215-3520
Counsel for Petitioner
